t,

No.

FILED
FEB 1 8 2021

20-7642

OFFICE OF THE CLERK
SUPREME COURT. US.

IN THE
SUPREME COURT OF THE UNITED STATES

'*==5Ja*j/£l

— PETITIONER

(Your Name)
vs.
r**y, fL vKfJM O £
TftP/jr c.U ft
A a) J f fiMff. i& 7~a-hj
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

Cl hf/TsJ S J AT£s Co^MT
AFASAls /'n/i TlJ/£ £’L£\J££jTb CMcWT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
Co v/2 r D£/J/£j/7/i n/ C,*/J£r/rwJ-/0SJt>L
TQ/2«l£0M si/ /f*A/7£.
PETITION FOR WRIT OF CERTIORARI

FsrzL/rJz_________________
(Your Name)
f/o&/jA <£ /1// 4 ce/7/?' rs?£sJ r~
/3C/*f SovTU fAST/-if 6/J/JAV 7 O
/
(Address)

An

*

c//A.A rio^/c/A 7% <-4J?G£
(City, State, Zip Code)
S' t»

(Phone Number)

roir^nr^r
51 h
j vyj
-Tl

i

^7
4-A

QUESTION (S) PRESENTED
Doesn't The State Of Florida Have to Obey Your United States
Supreme Courts Law In Kansas VHendricks 117S.C.T. 2072 (U.S. Kan.
1997) On Page 2080. Your Courts Law
Holds : Commitment Proceedings "Can Be Initiated " "Only" When A
Person Suffers From A Mental Abnormality Or Personality Disorder
Which Makes A Person Likely Engage In Predatory Acts Of Sexual
Violence.
Your United States Supreme Courts Law
REQUIRES : EVIDENCE OF A PRESENT MENTAL CONDITION !
THE STATE OF FLORIDA WITHOUT NO EVIDENCE OF MR FETZER
HAVING ANY PRESENT MENTAL CONDITION AND WITHOUT
THE STATE OF FLORIDA HAVING "NO" EVIDENCE OF MR FETZER
HAVING A MENTAL ABNORMALITY OR PERSONALITY DISORDER
WHICH MAKES MR FETZER LIKELY TO ENGAGE IN PREDATORY ACTS OF
SEXUAL VIOLENCE HAS UNCONSTITUTIONALLY DEPRIVED MR FETZER
OF HIS RIGHT TO LIBERTY FALSELY IMPRISONING MR FETZER.

THE STATE OF FLORIDA IS INTENTIONALLY AND MALICIOUSLY
MISUSING CIVIL CONFINEMENT FOR RETRIBUTION AGAINST THE
PETITIONER MR FETZER ! TO DELIBERTLY INTENTIONALLY AND
MALICIOUSLY INVENT AND FABRICATE A FALSE DIAGNOSIS OF
PARAPHILIA NOT OTHERWISE SPECIFIED.

j

•«v

Can The State Of Florida And Federal Courts In The State Of
Florida Including The 11th Circuit United States Court Of Appeals In
Atlanta Georgia Deiiberately Deprive MR FETZER His Substantive
Constitutional Right To Liberty And 14th Amendment To The United
States Constitution Under A Fabricated False Diagnosis That Doesn't
Exist?
And Can The Defendants Unconstitutionally Deprive MR FETZER His
Right To Liberty When They Are Going Against Your United States
Supreme Courts Law In Kansas V Hendricks On Page 2080 Your Court
HOLDS : "Commitment Proceedings Can Be Initiated"
"Only" When A Person Suffers From A Mental Abnormality Or
Personality Disorder Which Makes The Person Likely To Engage In
Predator Acts Of Sexual Violence.
"The Petitioner DANIEL FETZER Does Not Suffer From A Mental
Abnormality Or Personality Disorder Which Makes MR FETZER Likely
To Engage In Predator Acts Of Sexual Violence".
And Their Isn't Even Any Evidence That The Petitioner MR FETZER
Suffers From A Mental Abnormality Or Personality Disorder Which
Makes MR FETZER Likely To Engage In Predator Acts Of Sexual
Violence. "And Because Their Was No Evidence That The Petitioner
MR FETZER Suffers From A Mental Abnormality Or Personality
Disorder That Makes MR FETZER Likely To Engage In Predator Acts Of
Sexual Violence
That's Why The Defendants Chad Poppel The Secretary Of The
Florida Department Of Children And Family's When MR FETZERS
Prison Sentence Completely Expired On March 27,2010 On A Criminal

J

1
-■s.

Charge That Had Nothing To Do With Sex That's Why They
Intentionally And Maliciously Lied That Rape Was A Mental
Abnormality When They Knew It Was A Crime And That's Why They
Fabricated False Evidence That MR FETZERS Alleged Rape Charge
From 28 Years Ago That MR FETZER Was Acquitted On Was A Mental
Disorder" "When They Knew It Was A Crime" ! BECAUSE THEIR WAS
NO EVIDENCE THAT THE PETITIONER MR FETZER SUFFERS FROM A
MENTAL ABNORMALITY OR PERSONALITY DISORDER THAT MAKES
MR FETZER LIKELY TO ENGAGE IN PREDATOR ACTS OF SEXUAL
VIOLENCE!
Can The State Of Florida And Federal Courts In The State Of
Florida Including The 11th Circuit United State Court Of Appeals In
Atlantic Georgia Deliberately Deprive MR FETZER His Substantive
Constitutional Right To Liberty And 14th Amendment To The United
States Constitution And Violate The Law By Intentionally And
Maliciously Not Hearing MR FETZERS Evidence Of The Defendants
Chad Poppel The Secretary For The Florida Department Of Children
And Family's Lying That Rape Is A Mental Disorder When The
Evidence Over Whelming Proves Rape Is A Crime Not A Mental
Disorder ?
Can The State Of Florida And Federal Courts In The State Of
Florida Including The 11th Circuit Court Of Appeals In Atlanta Georgia
Deliberately Deprive MR FETZER His Substantive Constitutional Right
To Liberty And 14th Amendment To The United States Constitution And
Violate The Law By Intentionally And Maliciously Not Hearing
MR FETZERS Evidence Of The Defendants Chad Poppel The Secretary
For Florida Department Of Children And Family's Deliberately
Inventing A Fake Diagnosis Called Paraphilia Not Other Wise Specified

.\

That Doesn't Exist ? And That The American Psychiatric Association
States "Is Not A Diagnosis" "And Never Has Ben"!
And That The D.S.M.5 Which is The Diagnostic And Statisticai
Manuai The Official Classification Manual For Diagnosing Mental
Disorders In The United States "Confirms Rape Is A Crime"
"Not A Mental Disorder" And Does Not Provide Grounds To Find A
Mental Disorder Particularly Paraphilia Not Other Wise Specified.
"The Evidence" "Proves" In Professor Dr. Allen Frances Publication
TITLED : "D.S.M. 5 CONFIRMS RAPE IS A CRIME"
"NOT A MENTAL DISORDER"!
In Exhibit (2) On Page 1 Which Is Included PROFESSOR FRANCES
STATES : "DIAGNOSING RAPE AS A MENTAL DISORDER
THE D.S.M. 5 BLOWS THAT ARGUMENT OUT OF THE WATER!
RAPE IS A CRIME ! In Their Own Diagnostic And Statistical
Manual, Their D.S.M.5 Dr. Professor Allen Frances Proves It. Using
Evidence From Their Own D.S.M.5 Professor Frances Proves That Rape
Is A Crime Not A Mental Disorder See Exhibit (2) Exhibit (1) And The
D.S.M.5 Is Evidence!
Also In Professor Dr. Allen Frances Publication TITLED :
"D.S.M 5 CONFIRMS RAPE IS A CRIME NOT A MENTAL DISORDER"
On Page 2 Of Exhibit (2) On Page 2 Professor Dr. Allen Frances
STATES : These Repeated Repudiations Haven't Prevented Poorly
Trained Psychologists Testifying As Alleged Experts
In SVP Cases "From Inventing"
"THE FAKE DIAGNOSIS PARAPHILIA NOT OTHER WISE SPECIFIED"

ALSO SEE THE EVIDENCE Professor Allen Frances On The First Page
Second Paragraph To His 10 Page Declaration Which Is Exhibit (1)
Which Is Included With This Writ Of Certiorari.
Professor Dr. Allen Frances On The Second Page Of Exhibit (1)
Under Executive Summary In His Sworn Declaration Of Exhibit (1)
STATES : The Single Most Important Point Is That Rape Has Been
Explicitly Rejected As Grounds For Mental Disorder- By D.S.M. Ill
In 1980, By D.S.M.111R In 1987, Again By D.S.M. IV In 1984, And
Recently By D.S.M. 5.
It Has Been The Long Standing And Consistent Policy Of
"All The Successive Manuals Of Psychiatric Diagnosis To Regard Rape"
"As A Crime Not As A Mental Disorder"!
D.S.M. Deliberately Choses Not To Mention Rape Among The
Numerous Examples Used To Illustrate Other Specified Paraphilia—
Trying To Prevent It From Finding The Back Door Into The System And
Similar Usages Other Specified Paraphilia/ Paraphilia Nos,
Non Consent In Other Cases). Proves That Some Evaluators Continue
To Misunderstand And Misuse The D.S.M. In SVP Cases.
THE Diagnosis Of Other Specified Paraphilia/Paraphilia Nos. Non
Consent "Has No" Official Standing Cannot Possibly Be Made Reliably
And There Fore "Has No Place" In Forensic Proceedings.
Professor Dr. Allen Frances Who Was The Professor Emeritus Of
Psychiatry And Behavioral Sciences At Duke University See His
Credentials On Next Page Professor Frances Also Was Involved In
Writing The D.S.M. 5.

4 *«
• V.

Paragraph (1) AtkT® States:
DUKE UNIVERSITY MEDICAL CENTER
Department of Psychiatry and Behavioral Sciences
Alien Frances, MD
Declaration of Allen Frances MD

Ceee of)
Dated report: September 10,2016 ■
I, Alien Frances MD declare as (ofiows:
1' (was the Chair d the DSM IV Task Force that prepared the official manual used
to guide ail psychiatric diagnosis. I was a member of. the DSM IIIR Task Force, and
also was oh the Personality Disorders Workgroup lor DSM III and wrote the final
draft dthe DSM III Antisocial Personality Disorder section. I was the founding editor
d the Journal d Personality Disorders end have written numerous articles and book
chapters oh the diagnosis d.persoheitty disorder. I am currently Professor Emeritus
d Psychiatry end Behavioral Sciences at Duke University and was previously its
Chairman. Earner,.! had teen Professor d Psychfetry first at Cornell University and
then at Columbia Unfver&ty.
2- The Diagnostic ertd Statistical Manual d Mental Disorders, Fourth Edition, Text
Revision (DSM-IV-TCH), published by the American Psychiatric Association, is the
offidai classification tor diagnosing mental disorders in the United States, ft is used
by mental health cEnldans d all disciplines (psychiatrists, psychologists, social
workers, nurses, etc.). DSM-IV-TR Is also the standard guide tor psychiatric
research, Insurance and disability determinations, and tor establishing psychiatric
diagnoses (n legal settings.

Then On Page 2 Of Professor Dr. Allen Frances Swom Declaration Exhibit
Under Executive Summary States:
Executive Summery
The single most important point is that rape has been explicitly rejected as a grounds
for mental disortier-by' DSM III in i 980, by DSM I HR In 1987, again by DSM IV In 1994,
and recently by DSM 5. It has been the longstanding and consistent policy of all the
successive manuals ot psychiatric diagnosis to regard rape as a crime, not as b mental
disorder. DSM deliberately choses not to mention rape among the numerous examples
used to illustrate Other Specified PataphIBa-trying to prevent ft from finding this back
door into the system. Obviously, Mr4lHH£ case (end simitar usages of Other
Specified Peraphilia/Paraphilie NOS, nonconsent in other cases) proves that some
evaluators continue lo misunderstand and misuse the DSM In SVP cases. The
diagnosis of Other Specified Paraphilia/Paraphilia NOS, nonconsent has no official
standing, cannot possibly be made reliably, and therefore has no place in forensic

9-

i

MR FETZER Has Constantly Filed Every Legal Action That He Is Able To
File Including Writs Of Habeas Corpuses' On These Substantive Claims
Which Were Refused To Be Heard, This Most Recent Appeal Was A
1983 Civil Rights Complaint To The 11th Circuit Court Of Appeal Which
Also Requesting Habeas Corpus Release
As In O'Connor V Donaldson 95 S.C.T.2486 See Page 2489 Your
United States Supreme Court Under Justice Stewart Delivering The
Opinion Of The Court
STATED : Throughout His Confinement Donaldson Repeatedly, But
Unsuccessfully, Demanded His Release, Claiming That He Was
Dangerous To No One, That He Was Not Mentally III. MR FETZER Has
Ben Repeatedly Telling The Florida Civil Commitment Center And The
Courts The Same Thing And As Donaldson This Civil Commitment
Center Is Not Providing Treatment For MR FETZERS False Fabricated
illness.
In February 1971, Donaldson Brought His Lawsuit Under 42 U.S.C.
1983, In The United States District Court For The Northern District Of
Florida, Alleging That O'Connor And Other Members Of The Hospital
Staff Named As Defendants Had Intentionally And Maliciously Deprived
Him Of His Constitutional Right To Liberty.(FNl.).
(FN1.) On Page 2500 Donaldson's Original Complaint Was Filed As A
1983 Class Action In Addition To Damages Claim, Donaldson's
Complaint Also Asked For Habeas Corpus Relief Ordering His Release.

MR FETZER Filed On October 2,2019 A Civil Rights Complaint Under
U.S.C. 1983 In The Same Court As Donaldson The United State District
Court For The Northern District Of Florida Against Chad Poppel
Secretary Of The Florida Department Of Children And Family's, The
Florida Department Of Children And Family's And The Other
Defendants I Swore Out In My Complaint Stating Chad Poppel The
Secretary Of The Florida Department Of Children And Family's And
The Defendants Intentionally And Maliciously Invented This Fake
Diagnosis Of Paraphilia Not Other Wise Specified Against MR FETZER
And Intentionally And Maliciously Falsely Stated Lying That Rape Is A
Mental Disorder When They Knew MR FETZERS Rape Was A Crime So
Chad Poppel The Secretary Of The Florida Department Of Children And
Family's And The Florida Department Of Children And Family's And The
Defendants Could Intentionally And Maliciously Falsely Imprison
MR FETZER Solely On This Alleged Rape Charge From 28 Years Ago In
1983, Which MR FETZER Was Even Cleared On At The Time Of This
Alleged Rape By Two Psychiatrists At Bridgewater State Hospital. MR
FETZER Was Evaluated In Person On August 30,1983 By Psychiatrist Dr.
James William Right After This Alleged Rape And MR FETZER Again On
September 30,1985 Was Evaluated In Person By Another Psychiatrist A
Dr. Ph. Tae-iM Moon See Included Exhibit (5) And Exhibit (6)lncluded
With This Writ Of Certiorari. And These Psychiatrists In EXHIBIT (6)
STATED "MR FETZER Does Not Suffer From Any Major MentallLLNESS"
Which MR FETZER Has Maintained This Alleged Rape Was
Consensual All Along Which Was Reversed And MR FETZER Was
Acquitted On Which The Florida Department Of Children And
Families' And The Defendants Unconstitutionally Used From 28 Years
Ago The Defendants Deliberately Lied That Rape Is A Mental

Disorder When It's a Crime Which Chad Poppel The Secretary Of The
Florida Department Of Children And Families' And The Defendants
Knew Was A Crime And The Evidence Proves It's a Crime.
The Evidence Professor Dr. Allen Frances's 10 Page SwornDeclaration
Which Is Exhibit (1) Which Is Included With This Writ Of Certiorari And
Professor Dr. Allen Frances's Publication Titled D.SM. 5 Confirms
That Rape Is A Crime Not A Mental Disorder. Which Is Exhibit (2)
Which Is Included With This Writ Of Certiorari. Exhibit (1^ And
Exhibit (2) Is Over Whelming Evidence, Along With The D.S.M. 5
Which In Addition Is Substantial Evidence And Proves That The Florida
Department Of Children And Families' And The Defendants
Intentionally And Maliciously Lied And Fabricated This False Evidence
To Falsely Imprison MR FETZER Lying Falsely Stating That MR FETZERS
Alleged Rape That Was Reversed 28 Years Ago Was A Mental Disorder
When They Knew It Was A Crime And Then Also Fabricated This False
Diagnosis Of Nos Unspecified Deliberately Misusing This 28 Year Old
Alleged Rape Charge Which The Defendants Unconstitutionally Used
On The First Page Of Their Florida Department Of Children And
Family's Petition To Falsely Imprison The Petitioner MR FETZER,
Which Is Exhibit (7).
The Judgement And Conviction Was Reversed And Set Aside See
Exhibit (3) By The 3 Justices Of The Appeals Court In The State Of
Massachusetts Which MR FETZER All Along Has Maintained That It Was
Consensual And The 3 Justices Of The Appeals Court In Massachusetts
Even Saw And Stated That The Complainant Had A Motive To Lie
Concerning The Voluntariness Of Her Participation With MR FETZER,
See Included Exhibit (3) Which Is Included With This Writ Of Certiorari.

Your United States Supreme Court Stated And
The Question Is : If Civil Confinement Doesn't Conform To Your Courts
Precedents And Civil Confinement Has Become A Mechanism For
Retribution And General Deterrence And If It Were Shown That Mental
Abnormality Is Too Imprecise A Category To Offer A Solid Basis For
Concluding That Civil Detention Is Justified Like It Has Become
In MR FETZERS Case, "Will Your Court Do What It Said It Would Do
Your Precedents Not Suffice To Validate It And Your Court Find Civil
Confinement Unconstitutional ?"
In Kansas v Hendricks 117 S.C.T.2072 521 U.S. 346 (U.S. Kan 1997)
Your United States Supreme Court On Page 2087 Justice Kennedy
Concurring At 373
HOLDS : If However, Civil Confinement Were To Become A
Mechanism For Retribution Or General Deterrence Or General
Deterrence Or If It Were Shown That Mental Abnormality Is Too
Imprecise A Category To Offer A Solid Basis For Concluding That Civil
Detention Is Justified, "Our Precedents Would Not Suffice Validate It"!
In MR FETZERS Case It Has Become A Mechanism For Retribution!
The Florida Department Of Children And Family's How They
Intentionally And Maliciously Misused It To Fabricate False Evidence
Against MR FETZER It Has Become A Mechanism For Retribution And
In MR FETZERS Case It Shows That The Mental Abnormality Is Too
Imprecise A Category To Offer A Solid Basis For Concluding That Civil
Detention Is Justified.

See MR FETZERS Petition To The 11th Circuit Court Of Appeals
TITLED: Petitioner's Petition To The United States Court Of Appeals On
Page 16, 17, And 18 To The llthCircuit Court Of Appeals Dated
July22,2020 See Entire Petition To 11th Circuit United States Court Of
Appeals Which Is Included With This Writ Of Certiorari See Exhibit (1A)
Another Question : Is Whether Petitioner MR FETZER May Bring A
Claim Based On The Fourth Amendment To Contest The Legality Of His
Pretrial Confinement ?
Your United States Supreme Court in Manuel V. City Of Joliet III,
Supra 137 S.C.T. 911 (U.S.2017) On Page 914 Kagan
Delivered The Opinion Of The Court.
HOLDING : We Hold Today Manuel May Challenge His Pretrial
TH

Detention On The Ground That It Violated The 4

Amendment.

Another Question : Doesn't Petitioner MR FETZER Have His
Constitutional Right To Challenge His Pretrial Detention As In Manuel V.
City Of Joliet III, Supra 137 S.C.T. 911 (U.S.2017) On The Ground That It
Violated MR FETZERS 4th Amendment ?
Another Question : Doesn't This 4th Amendment Constitutional Right
Also Apply To Petitioner MR FETZER ?
Another Question : And Doesn't The State Of Florida And The 11th
Circuit United States Court Of Appeals Have to Go By Your Honorable
Courts Law In Manuel V. City Of Joliet III, Supra 137 S.C.T. 911
(U.S.2017) That Proves The Defendants Violated MR FETZERS
4THAmendment Right

Another Question : The State Of Florida And Courts When They Lack
Jurisdiction And Or Subject Matter Jurisdiction Under Section 95.11
Section (1) Florida Statute Don't They Lack Jurisdiction To Even Bring
This Involuntary Civil Commitment Proceeding Based On An Index
Offense That Is 20 Years Or Older MR FETZERS Is Over 28 Years Old.
Another Question : Don't They Flave To Go By The Law ?
MR FETZERS Sole Criminal Judgment And Conviction Case Number
F.No,84-815 The Only One MR FETZER Has That Was Used For
Involuntary Civil Commitment Are Over 20 Years Old And Thus bared by
The Statute Of Limitations.
Section 95.11 Florida Statute : STATES "Limitations OtherThan For
The Recovery Of Real Property"
Actions Other Than For Recovery Of Real Property "Shall Be"
Commenced As Follows:
(l)Within Twenty Years—An Action On A Judgment Or decree Of A
Court Of Record In This State.
In The Instant Case The SVP Act Cannot Circumvent Section 95.11,
Florida Statutes, Without Triggering A due Process, Equal Protection
And/ Or Expose Facto Violation.

The Instant Case Was Prosecuted In Violation Of Section 95.11 See
Exhibit (3) The 1983-85 Case In Massachusetts. Then See Exhibit (7)
The First Page Of The Petition To Have MR FETZER Declared A Sexually
Violent Predator And Its Time Stamped 2010 See The First Paragraph
It States As Grounds They Are Using This Alleged Conviction From

I

Massachusetts On November 5,1985 That's Exhibit (3) Which Was
Reversed And Set Aside By The 3 Justices Of The Appeals Court In The
State Of Massachusetts Which MR FETZER Maintained Was
Consensual And The 3 Justices Even Saw And They Stated That The
Complainant Had A Motive To Lie Concerning The Voluntariness Of
Her Participation With MR FETZER See Included Exhibit (3) And The
First Page Of The Petition See Exhibit (7)
The Instant Case Was Prosecuted In Violation Of Florida's Statute
Of Limitations, 95.11 Which Is Exhibitt Discharge) Which Is Included
With This Writ Of Certiorari /That Was In Effect At The Time, And
Which Already Barred The State Of Florida From Bringing This Petition
Against MR FETZER.

Section 95.11 Subsection (1)

States: (An Action On Judgment Or Decree Of A Court Of Record In
This State Must Be Commenced Within 20 Years.
Subsection (6) (Laches "Shall" Bar Any Action Unless It Is
Commenced Within The Time Provided For Legal Actions Concerning
The Same Subject Matter), And Subsection (9) (An Action On A Sexual
Battery Offense On A Victim Under Age 16, Is Barred, If The Crime Was
Committed On Or Before July 1, 2010).
All Criminal Offences Allegedly Committed By MR FETZER Happened
Between The Years 1983-1985 Which Had To Do With An Alleged Adult.
Also Included With This Writ Of Certiorari Is : MR FETZERS Motion
To Dismiss For Lack Of Subject Matter Jurisdiction Which Proves They
Didn't Have Jurisdiction. That Was Sent To The Trial Court That The
Trial Court Kept Putting Off And Didn't Hear, And Also A Motion To The
United States Court Of Appeals Eleventh Circuit Titled Motion To Hand

' i

»

These Two Fundamental Exhibits To The 11

TH

Circuit Court To Hear

With MR FETZERS Motion For A Rehearing Exhibit (13) Which Is The
Exact Exhibit As Exhibit (Discharge) Which Is The Florida Statute Of
Limitations 95.11 Which When The Petition For Florida Civil
Commitment Was Filed By The State Of Florida This Statute Of
Limitations 95.11 Subsection (1) 20 Year Time Limit Already Expired In
MR FETZERS Case Which Barred The State Of Florida To Lawfully File
The Civil Commitment Petition Against MR FETZER.
The Florida Department Of Children And Families And The State Of
Florida Was Statutorily Barred From Prosecuting The Petition For
Involuntary Civil Commitment By Section 95.11 Subsection (1), Florida
Statutes, Art.l ,9, & 10,Florida Constitution. As Well As The Federal
Constitution. Henceforth, MR FETZER Must Immediately Be Discharged
From The Defendants Custody.

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
p 5 h Le,^ n oac/y
/l A/A/ P

f\TTO/Z/j£jf QP/JpjZfiL
/a sS1~ P

pf f/o/J

c. h zJ fopl^L.

T-i' P> T'T'o &//£y

Oux/bL

Co^ry TudG£

f

OP/ r etifLJrc*J Pfr/J/Lys

\jl.s. n h y/srp/r/f

c

fer*.**

f p r/ r/odP'p
f/i Ct 4 / r/ A JSIMSrc + rv^

QoUhiJ -^Aa>ypte
y~

o P/d A

C- y \f /’ L

/3 A / r

Co/inrr/' Psj'T c. Pa/PPA
pr

ssc! wS °

*JU. $%

/' c h A 0L

u0ATk *-fhy

£?/'£ TM/o-r J~votes

Qus/hL

Cou^JT/

CS/OufT

5/cA/A^ Plo^r/P/’T CoM*cn'o^
/-? M A )C XA/Ch
r

pfi- y o P
C/’/C vr'T

LA So A
0 A A

■fh

£/L

c /' /c W /“

C o -4 f ‘T’

Co
Ce

i/A 1

//

t

i

TABLE OF AUTHORITIES CITED
CASES
Ka *jsa g y ^£'AjcIr!c.)Cs

n 7 s. or. 3o7^ (us. jc^m -7)

/IfiA/vfL v. ary of Tsuxtill.) (u s.^17)

PAGE NUMBER
'3°*'*, 3o73~

13-7 S. cr. qn

<?sy
7/7

STATUTES AND RULES
Cowrr/uirr

^

.

*■*■*■,,

K3E i mT.'*tS</oW "**'*

fRofl A FF^TAL f\J>A!°£/)*t-/Ty oK pjttsoA/fiury OUoZcJF* ulHt*M rib*-*
pFRs^AJ L iK&y To JtrtfAffiAJ T^Frvjbrrx fic.TZ°f &&*+ *■
/ZrtJyoUsK UtftrfJ STfiTJs
CvVfiTS LA*ij; XT RAQ^A^s Fx/cJFA^F
£J?S/T FIFP fM. c o/v'c/Zc- T)o/Ji iCfrdStS \J' j4£/jJM/C'£s P* GF
or A
/a/1/0 L v/J7~Aty a\t£
* & Li'P'TFc/ To TtfbSjf uJp o^SvFTF^t F*QSj/
A \JoLi Tlo/SAL JrtPM&/7AMT
tFF/4 jAAtyt*Xo«s teF/otJ T#£JACmT7oL/
v/, MF^dF/c/^Ccf7S'
_ _
. |~it
TtfZ D/Ag>A/c*T/C afJ *$r*Tf&T?CAL /1J>AJVAC oFOFFt^P0 tSo*.dF*S
,
£jJjTh
i-T/QA/fo s/lS) AA,J~9^SA ^ 7~/^
jy^/XFFFFFFF
?-//£ pFo,FpA^U^TO X/Jclu</Jf Co^cW/ /*a*M/#». AS AaLoFF/C^ac c/sAoMoStis

R£AfFtK/iMG TFfTFhP/£ /s A cfiMF N*r */i£jjrsc Q^qaJ^[ SFFFxF/'S/rfij^
F&qFAssgil FaAoaAsAajJ (ZrchA/J Uo id. jtaj-PhO Pu&lrcjhr/CkJ T/7t£*Z S£-Xvao
£fi£/Ssi e-c-TTj o/J F^Sr' A* &A Xs-jcl uJjfJ u/j TP TFrs tJRtv~oF cFKTasK*

OTHER

PRofF ss^L Or, a IL&J F&MoFs SU0R4J )0 PfiCf St&A/Fc/ DFCLMArtGU ExAwrfi)
VjptcA /£ t'/Jc.t.\j(J£j UJ/Tp TlP^ lJ£/ r *P CFA fyo&s*£jt c g>a/Fi-As}&
RMS /j A ca/fF **
By rFS £>sfS?
A/jJ FiCJF&Sr(R) PAoFFfSbA Or. All#*/ F**FcAsr /V4Z/ca7^<W uF/cUPFoi/£y
aajJ Xs F'XCFb ; F'FFOsf r<= 0/jFia/?s ParF^ Ac^/^r>^L/5/^
£fijf-terr~fa) 'F //Jc,Cvc/*c/ U/TP r/Fs LjA/XoF cF*r/o{
7'FA X Ajsr/VJ'T C.ASA lJA*S F* oSAGuTJCf/ Aej \f fo l + rsocs
v
FuA,Jaj 'S'TSTvtA o F L/%S9fiT*rj'fajs qS?J} uFi'C*#/F£jcAS4/T&teoP*&G£~

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

JX

CONCLUSION..................

\C

INDEX TO APPENDICES
APPENDIX A TM £ oPfA/lou o F Tt4f
APPENDIX B O

fT£V STATSs

'0£^f*£7/i& ££/J£/*/£/&£jiJsfJff7j& ST^ v//?/~

APPENDIX C T/J£ oP/Wv* o

f rtf/r u,A>/TJtf sTATTs cfrsTr/or Co
QXT&cr

■S7Co»*/m‘

fZfPotr Aoc)T£ccX/ifc?*TJ&J tM/J7T*</SW

APPENDIX D Ac ctATWC
T ‘T/rtT U'TW y&vA Co ■y^'T~

APPENDIX E ^ P& Q vfsffJ
£* ^e-^JS 6/J °
O A/ cy natjoPo m P* ys /3/t^a r*ft 9o OAysu+*s **V
s£jc LSTfS/L TO /o^A Co v/tr c jU q/SSJJoSc

APPENDIX F

1

4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix &_)— to
the petition and is frPPP
t‘x(& ) o Pi/vro/j d£#/£/a/C R£
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix j£) to
the petition and is P) Pp£ vj fK(p) oPO£j* cct/>r//jc Ptt/'oa/
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the _
to the petition and is
appears at Appendix
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
lp(| For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
g//3/^o^o
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: 9 !22 l2o3a
, and a copy of the
order denying rehearing appears at Appendix _13
An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
XT£*jS/0/U £> f
T/i£
C g tzr/oftfrtLf WAS ^ QugsrgJ QAJ

n'T/#J Fc A. f* UM/ToF

F £ CoAtSxfjS#MTf6lJ T
C/fiCvtr
£T/>T£f CO^A /—
pg/J/fJ OAJ qfM/JeZo tHOAys &££*& rHX
O F AJ»J>£Ai% LJ > s
x
A/
uS/’TM y o^A
<7 o OAys i~JX*£
L£rre/i. x SX/jr /o^A Co^ai- sx& aPaxw/k (£/

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

Si

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
f ,4 g

V£ TTaiJA/JT5

a £ T/Z i T& /

j:>JT£urt'OA/A iLy

rf A LTOoaSLy
fr,Y6*r- To Lib/S/s’/

f* rzj£/L o//’ j4rS CoA/sr/

&£/j fMLSzty znf’fit'Go^JcS fo A.

rtfl f£Tz£A

Cf \/

f j4r£ )HTh An£*t/r>

I o \J£ frfi-s /A/ y/foLfT/'o*/ o
fo T'diz cou/'r£c/ 5TaT£%
Ju£ fnoo£$s

co/J€r^rurt>o^

-TO

yj4£ &£ Pitttc/WT*
-TO

rM £

s/toLt-r^J TiT f£rz.££s HrhAslA*i/si&#r'

r*/ £ rAAAs c o* S r//v^

rnp> fgTzSA

yj^s jF A<J J-t ?s Wrh AaiJ &

£'£/C
/2/scf ^ajusu Al­ 7° w/j rsh/7 £/uJ~ \S To s A TfS
C
£
t' o
SJ/S US/IC
r»l$ £iy £f> r* t*aAt*A
m
foA

o'JfA

10 y£»*s

f-ltl f£ TzJP&s

ll>6j TTf

£-T*> Afl Aa/c/A/TajX T6 T

U A £ \T/ o l~ATi£ ef.

£TATfs c atJS rtr'TTc'oas
Ttif ?A>srAAf- <£*-$£ LJAS ft? a SAeuT^t/ /At \f/oLArfrtkJ
£X £t&ttr‘(p M&#■**<?*)
af f Lo&id A £TAT*T£ 'IS'.n U/4oct4 / *
/AJcc.we/£j U/'Th rttts MtZ/’rof C fAT/oA^e./
■W/ // tc hi 7&
Ck

a/

foffft r/4z

O £ P t* #--r/i tCjur
srAT£

£ £ c.A£TAAX

o

/■ £#* fio^yy

0 f c. /J ,'L(jM-£sJ Aa/cJ /”A/o/Ltfs A^cJ TfA

of ytoA/jA

U As STAT«r°£fy )3 aaa^j

ffon fAosscutMTC r/A£ rtrsr/azj So*. /A/UolvzJTAAy
c.i'Atc o oriAtT/7£a/t fey Afcr/SAt q£ZH S\sjbS£-cjyfS CO
FLaAicJA & TATwT&s A A f >' q Aa,J/o /*/«.. C(WfiaA s

T~f £

yp J£A At-

c.oajs

ry'TV7~Aa^y.

3.

I.
ALSO SEE THE EVIDENCE Professor Allen Frances On The First Page
Second Paragraph To His 10 Page Declaration Which Is Exhibit (1)
Which Is Included With This Writ Of Certiorari.
Professor Dr. Allen Frances On The Second Page Of Exhibit (1)
Under Executive Summary In His Sworn Declaration Of Exhibit (1)
STATES : The Single Most Important Point Is That Rape Has Been
Explicitly Rejected As Grounds For Mental Disorder- By D.S.M. Ill
In 1980, By D.S.M.111R In 1987, Again By D.S.M. IV In 1984, And
Recently By D.S.M. 5.
It Has Been The Long Standing And Consistent Policy Of
"All The Successive Manuals Of Psychiatric Diagnosis To Regard Rape"
"As A Crime Not As A Mental Disorder"!
D.S.M. Deliberately Choses Not To Mention Rape Among The
Numerous Examples Used To Illustrate Other Specified Paraphilia-—
Trying To Prevent It From Finding The Back Door Into The System And
Similar Usages Other Specified Paraphilia/ Paraphilia Nos,
Non Consent In Other Cases). Proves That Some Evaluators Continue
To Misunderstand And Misuse The D.S.M. In SVP Cases.
THE Diagnosis Of Other Specified Paraphilia/Paraphilia Nos, Non
Consent "Has No" Official Standing Cannot Possibly Be Made Reliably
And There Fore "Has No Place" In Forensic Proceedings.
Professor Dr. Allen Frances Who Was The Professor Emeritus Of
Psychiatry And Behavioral Sciences At Duke University See His
Credentials On The First Page Of Exhibit (1) Professor Frances Also
Was Involved In Writing The D.S.M. 5.

X

I

In Addition MR FETZER At The Time This Alleged Rape Happened 28
Years Ago MR FETZER Was Cleared From Not Having No Mental
Abnormality And No Mental Illness, In August 30,1983
Dr. James William Of Bridge Water State Hospital In Massachusetts
Evaluated MR FETZER And Dr. William
STATED : MR FETZER Does Not Suffer From Any Major Mental Illness
And In September 30, 1985 When Ph. D Tae-lm Moon Evaluated
MR FETZER At Bridge Water State Hospital In Massachusetts, And Dr.
Moon
STATED : MR FETZER Does Not Suffer From Symptomatology Of A
Major Mental Illness See Exhibit (5) Order Of The Court For Examination
As To Competence. And See Exhibit (6) Results Of Examination By
Williams And Moon
STATEING : MR FETZER Does Not Suffer From Any Major Mental Illness.

$

REASONS FOR GRANTING THE PETITION
MR FETZER Has Filed All Kinds Of Habeas Corpuses To All The State
Courts And All The Federal Courts Including The United States Court Of
Appeals For The 11th Circuit Which Were Refused To Be Heard And
Refused To Be Heard On The Merits MR FETZER Has Filed Every Legal
Action He Was Able To File Which Were Refused To Be Heard.
MR FETZER Has A Constitutional Right To Get Justice In His Case.
And MR FETZER Has A Constitutional Right For The Ends Of Justice To
Be Met!"
And I Respectfully Ask Your Honorable United States Supreme Court
To Grant This Petition Because You Are The Only Chance I Have To Get
Justice And To Have The Ends Of Justice Met And I Respectfully Ask
Your Honorable United States Supreme Court To Hear The Facts.
And MR FETZER Is Being Falsely Imprisoned And MR FETZER Has Ben
Falsely Imprisoned For Over 10 Years And MR FETZER Has Ben
Unconstitutionally Deprived Of His Constitutional Right To Liberty
The Facts Are Below And In The Following Pages :
Chad Poppel The Secretary Of The Florida Department Of Children
And Families' And The Florida Department Of Children And Families'
When MR FETZERS Criminal Sentence That Had Nothing To Do With Sex
Completely Expired On March 27,2010 Chad Poppel The Secretary Of
The Florida Department Of Children And Families And The Florida
Department Of Children And Families' Intentionally And Maliciously
Lied That MR FETZERS Alleged Rape From 1983 Which is Exhibit (3)
Was A Mental Abnormality And Mental Disorder "When It's Not"
"It's a Crime" "And The Evidence Proves It's a Crime!"

9.

MR FETZER AFTER Being Refused To Be Fleard in All The Courts On His
Habeas Corpuses On The Facts And Merits MR FETZER Filed A 1983
Complaint In The United States District Court For The Northern District
Of Florida On October 2,2019 Against Chad Poppel The Secretary Of
The Florida Department Of Children And Families And The Florida
Department Of Children And Families That They Had Intentionally And
Maliciously Lied That MR FETZERS Alleged Rape From 1983 Was A
Mental Abnormality And Or A Mental Disorder
"When It's Not"

"It's A Crime!"

And MR FETZER Does Not Have a Mental Abnormality, And
MR FETZER Doesn't Have A Mental Disorder And MR FETZER Doesn't
Have Any Mental Illness , And MR FETZER Is Dangerous To No One
Solely Due To Chad Poppel The Secretary Of The Florida Department
Of Children And Families' And The Department Of Children And
Families' Intentionally And Maliciously Inventing And Fabricating False
Evidence Deliberately Lying That Rape Is A Mental Disorder And A
Mental Abnormality "When It's Not" "It's A Crime!" They Falsely
Imprisoned MR FETZER And MR FETZERS Ben Falsely Imprisoned For
Over 10 Years And They Unconstitutionally Deprived MR FETZER Of His
Constitutional Right To Liberty.
And "The Evidence Is Overwhelming And Proves" "Rape Is A Crime!"
"Not A Mental Abnormality" "Or A Mental Disorder!"
The Evidence See Exhibit (1) Professor Frances 10 Page Sworn
Declaration Which Is Included With This Writ Of Certiorari
And See Exhibit (2) Professor Frances Publication
Titled : D.S.M 5 Confirms Rape Is A Crime Not A Mental Disorder

to.

Exhibit (2) Is Also Included With This Writ Of Certiorari.
Also See Exhibit (IB) Professor Allen Frances MD And Richard Wollert,
PhD Publication From The Journal Of The American Academy Of
Psychiatry And The Law. (Analysis And Commentary)
TITLED :Sexual Sadism : Avoiding It's Misuse In Sexually Violent
Predator Evaluations.
On The First Page In The First Paragraph Right Under Allen Frances
And Richard Wolleats Name On The First Page
STATES : The Diagnostic And Statistical Manual Of Mental Disorders
Fifth Edition D.S.M-5 And (D.S.M.5) Task Force Has Recently Rejected
The Proposal To Include Coercive Paraphilia As An Official Diagnosis,
"Reaffirming That Rape Is A Crime'' "And Not A Mental Disorder!"
We Hope This Will Discourage What Has Been The In Appropriate
Practice Of Giving Rapists The Made-Up Diagnosis Of Paraphilia Nos,
Non Consent To Facilitate Their Psychiatric Commitment Under Sexually
Violent Predator SVP Statutes.
And See The D.S.M. 5 Which Proves Rape Is A Crime.
And MR FETZER On July 22,2020 Appealed This 1983 Complaint To
The United States 11th Circuit Court Of Appeals. In Petitioners Petition
To The 11th Circuit Court Of Appeals Which Is Exhibit (1A) Which Is
Included With This Writ Of Certiorari, And As In Donaldson's 1983
Complaint MR FETZER Moved The 11th Circuit Court For In addition To
His 1983 MR FETZER Requested Habeas Corpus Relief In His 1983
Complaint As Donaldson Requesting Habeas Corpus Relief To Be
Discharged Along With His 1983 Complaint Of Being Held Against His

Will Of Donaldson Stating How They Intentionally And Maliciously
Deprived Him Of His Constitutional Right To Liberty, With Donaldson
Claiming That He Was Not Mentally III, And Was Not Dangerous To No
One. Exactly Like MR FETZER Being Intentionally And Maliciously
Deprived Of MR FETZERS Constitutional Right To Liberty See O'connor
V. Donaldson 95 S.C.T. 2486 See Page 2488 And See 2500 (FN.l)
The Defendants Chad Poppel Secretary Of The Florida Department
Of Children And Families' And The Florida Department Of Children
And Families' Intentionally And Maliciously Deprived MR FETZER Of
His Constitutional Right To Liberty By Intentionally And Maliciously
Lying And Fabricated False Evidence That Rape Is A Mental Disorder
And A Mental Abnormality "When It's Not It's A Crime!"
And The Evidence Proves Rape Is A Crime And The Defendants
Fabricated And Invented False Evidence Of A False Diagnosis Of Nos
Unspecified Against MR FETZER To Intentionally And Maliciously
Deprived MR FETZER Of His Constitutional Right To Liberty And To
Falsely Imprison MR FETZER Unconstitutionally And Unlawfully For The
Rest Of His Life Out Of Retribution Against MR FETZER To solely Extend
MR FETZERS Prison Sentence.
This Civil System Is Being Used In Florida To Impose Punishment
Against MR FETZER And Is Being Used For Retribution Against MR
FETZER.
In Your Honorable Courts Precedent Kansas V.Hendricks 117 S.C.T. 2072
521 U.S. 346(Kan 1997)On Page2087 Justice Kennedy Concurring At 373
Holds : If However The Civil Statute Doesn't Conform To Our
Precedents If However, Civil Confinement Were To Become A
Mechanism For Retribution Or General Deterrence Or If It Were

ta

Shown That Mental Abnormality Is Too Imprecise A Category To Offer
A Solid Basis For Concluding That Civil Detention Is Justified Our
Precedents Would Not Suffice To Validate It.
"In MR FETZERS Case It Has Become A Mechanism For Retribution !
Chad Poppel The Secretary Of The Florida Department Of Children
And Families' And The Florida/ Department Of Children And Families7
How They Intentionally And Maliciously Lied And Intentionally And
Maliciously Misused Mental Abnormality To Lie Against MR FETZERS
Alleged Rape When The Evidence Overwhelming "Proves It's A Crime"
And How They Fabricated False Evidence Of A False Diagnosis
"It Has Become A Mechanism For Retribution And In MR FETZERS
Case It Shows And Proves That The Mental Abnormality Is Too
Imprecise A Category To Offer A Solid Basis For Concluding That Civil
Detention Is Justified For MR FETZER And Civil Detention Is
Intentionally And Maliciously Being Used For Punishment Against
MR FETZER And Should Be Found Unconstitutional.
Also In Your Honorable Courts Holding In Manual V. City Of Joliet
ILLINOIS Supra 137 S.C.T. 911 (U.S.2017)
Your United States Supreme Court On Page 917
Holds: f31(The Fourth Amendment Protects fTlhe Right Of The People
To Be Secure In Their Persons Against Unreasonable...Seizures" And
Holds : (A" Person Is Seized "Whenever Officials "Restrain His
Freedom Of Movement" Such That He Is Not Free To Leave)"
And MR FETZER Was Not Free To Leave Prison When His Prison
Sentence Completely Expired Due Entirely To This Fabricated Evidence
That Rape Is A Mental Disorder And It's Not A Mental Disorder Or A

13

0

. *

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Tfe 1,'fL
Date:

rz£/?

3 - / 7-1*3!

is

